           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


   FOLLOW-UP ON THE IMPACT ON THE
  SOCIAL SECURITY ADMINISTRATION’S
      PROGRAMS WHEN AUXILIARY
   BENEFICIARIES DO NOT HAVE THEIR
    OWN SOCIAL SECURITY NUMBERS

     March 2008    A-01-07-17038




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                               SOCIAL SECURITY
MEMORANDUM

Date:      March 14, 2008                                                                      Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Follow-up on the Impact on the Social Security Administration’s Programs When
           Auxiliary Beneficiaries Do Not Have Their Own Social Security Numbers
           (A-01-07-17038)


           OBJECTIVE
           Our objective was to determine whether the Social Security Administration (SSA)
           implemented the recommendations in our September 2002 report, Impact on the Social
           Security Administration’s Programs When Auxiliary Beneficiaries Do Not Have Their
           Own Social Security Numbers (A-01-02-22006).

           BACKGROUND
           Auxiliary beneficiaries are children, widows, spouses, and parents who receive
           Old-Age, Survivors and Disability Insurance (OASDI) benefits based on another wage
           earner’s Social Security record. As such, the primary wage earner’s Social Security
           number (SSN)not the auxiliary beneficiary’s SSNis used to track the auxiliary
           beneficiary's benefit payments on the Master Beneficiary Record (MBR). SSA
           commonly refers to the auxiliary beneficiary’s SSN as the Beneficiary’s Own Account
           Number (BOAN). As of December 2007, SSA had paid benefits to over 49 million
           OASDI beneficiaries and over 11 million of these individuals were auxiliary
           beneficiaries. 1

           In November 1988, Public Law Number (Pub. L. No.) 100-647 § 8009 2 amended the
           Social Security Act to require that an individual first entitled to Social Security benefits
           June 1, 1989 or later present satisfactory proof of an SSN before receiving any Social
           Security benefits.




           1
               SSA, Actuarial Publications: Social Security Beneficiary Statistics, December 28, 2007.
           2
               The Social Security Act § 205(c)(2)(F), 42 U.S.C. § 405(c)(2)(F).
Page 2 – The Commissioner


To comply with this law, SSA established the missing BOAN alert process to detect
when an auxiliary beneficiary’s SSN is missing on the MBR. Additionally, in Calendar
Year 2007, SSA implemented a system enhancement (as part of its Medicare
Modernization Act Project) to put SSNs on the auxiliary records.

SSA uses SSNs to control information that can affect a person’s entitlement to benefits
under the OASDI and/or Supplemental Security Income (SSI) programs. 3 For example,
death reports and SSI records are associated with the SSNs of the individuals to whom
the information pertains. To ensure payment accuracy, SSA routinely matches this
information to information on the MBR. Therefore, when the auxiliary beneficiaries’
SSNs do not appear on the MBR, the value of the Agency’s data matches to determine
eligibility and payment amount is diminished.

In our September 2002 report, we determined that SSA’s ability to ensure payment
accuracy in both the OASDI and SSI programs was impacted when auxiliary
beneficiaries did not have their own SSNs on the primary wage earner’s MBR.
Specifically, our audit identified 126,471 auxiliary beneficiaries receiving benefits as of
August 2001 whose SSNs were missing from the MBR, and we quantified
approximately $8.9 million in improper payments.

SSA generally agreed with three of the four recommendations in our prior report.
However, the Agency did not agree with our recommendation to modify its missing
BOAN alert process to include auxiliary beneficiaries who became entitled to benefits
before June 1989. (See Appendix B for more information on the recommendations in
our prior report and Appendix C for our scope and methodology for this report.)

RESULTS OF REVIEW
SSA implemented two of the three recommendations it agreed to in our prior report. In
addition, the Agency made an effort to implement our recommendation to add the SSNs
to the MBRs of all auxiliary beneficiaries currently receiving benefit payments.
However, we still identified 63,134 auxiliary beneficiaries without an SSN on the MBR,
and we quantified about $7.6 million in improper payments. 4




3
  SSI is a needs-based program where eligibility and payment amount depend, in part, on the individual’s
income, including OASDI benefits.
4
  Our current review identified 50 percent fewer auxiliary beneficiaries receiving benefits without an SSN
on the MBR than our prior 2002 review. Of the 126,471 auxiliary beneficiaries in our 2002 review without
an SSN, 10,264 (8 percent) were first entitled to receive OASDI benefits in June 1989 or later. Whereas,
of the 63,134 auxiliary beneficiaries without an SSN in our current review, 5,909 ( 9 percent) were entitled
in June 1989 or later. Additionally, as of February 2008, SSA recovered $3,086,361 of the $7,577,002 in
improper payments in our current review.
Page 3 – The Commissioner


These dollars consist of

         $7.5 million in OASDI benefits improperly paid due to the deaths of auxiliary
          beneficiaries; and

         $89,938 in incorrect SSI payments because the appropriate amount of the
          auxiliary beneficiaries’ OASDI benefits was not recognized as income when their
          SSI payments were calculated.

About 96 percent of the auxiliary beneficiaries in these cases were first entitled to
benefits before June 1989. Therefore, although the Social Security Act 5 only requires
SSA to obtain satisfactory proof of SSNs from individuals first entitled to benefits
June 1989 or later, it is beneficial in terms of preventing improper payments to include
all beneficiaries regardless of when they became entitled to benefits.

IDENTIFICATION OF DECEASED AUXILIARY BENEFICIARIES

Through the Agency’s Death Alert, Control and Update System (DACUS), SSA obtains
death information and matches the SSNs of the deceased individuals to the SSNs on
the MBRs. Therefore, SSA’s ability to identify deceased auxiliary beneficiaries and
terminate benefits in a timely fashion is diminished when the auxiliary beneficiaries’
SSNs do not appear on the MBR. Of the 63,134 auxiliary beneficiaries in our population
who did not have an SSN on the MBR, we identified 311 individuals who appeared to be
paid benefits after death.
                                                                     Results of Death Cases
With SSA’s assistance, we determined that, of              Incorrect Payments                    No
these 311 auxiliary beneficiaries,                        Due To Missing SSNs                 Incorrect
                                                                  88%                         Payments
     272 (88 percent) were paid $7.5 million in                                                11%
      OASDI benefits after death because of their
      missing SSNs;
     35 (11 percent) were alive. (As of
      February 2008, the Agency added the
      SSNs to the MBRs for 31 of these
      35 beneficiaries.); and                                                                 Still Being
                                                                                               Worked
     4 (1 percent) were still being worked by                                                     1%
      SSA as of February 2008.




5
    The Social Security Act, supra.
Page 4 – The Commissioner


Auxiliary Beneficiaries Improperly Paid After Death

The 272 deceased auxiliary beneficiaries, whose undiscovered deaths resulted in
$7.5 million in improper payments, include:

       267 auxiliary beneficiaries who were issued $7.4 million in benefits after their
        deaths. On average, SSA learned of the deaths 45 days after the individuals
        died. However, because the beneficiaries’ SSNs did not appear on their MBRs,
        DACUS did not identify the deceased individuals as auxiliary beneficiaries.
        Consequently, SSA continued paying benefits for an average period of
        29 months after the Agency was notified of the individuals’ deaths. Had the
        SSNs been on the MBRs, DACUS would have identified the deceased
        individuals as auxiliary beneficiaries and terminated the benefits in a more timely
        manner.

        For example, a widow from Virginia died in June 1990, but SSA continued to pay
        benefits through September 2007, even though the Agency was notified of her
        death in July 1990. As a result, the beneficiary was overpaid $181,895 in OASDI
        benefits. As of February 2008, SSA had not recovered any of the funds.

       5 auxiliary beneficiaries who are most likely deceased. SSA has suspended
        benefit payments, and at least 7 months have elapsed without payments being
        issued. Since the beneficiaries have not contacted the Agency to reinstate the
        benefits over the last 7 months, they are most likely deceased, and SSA will
        need to attempt to recover an additional $129,787.

As of February 2008, the Office of the Inspector General’s Office of Investigations was
investigating 48 of the cases for possible fraud. For example, in one case, SSA staff
confirmed that a woman, receiving surviving divorced spouse’s benefits, died in July
2001. In addition, staff discovered that her son was living at the address shown on her
MBR. The MBR also showed that her direct deposit information was updated several
years after her death. In August 2007, SSA terminated the benefits and assessed an
overpayment in the amount of $59,151—most of which had not been recovered as of
February 2008.

RECOGNITION OF OASDI INCOME IN SSI PAYMENT CALCULATIONS

SSI is a needs-based program where eligibility, in part, is dependent upon the
individual’s income. SSA considers OASDI benefits received by SSI recipients as
income and records it on the recipients’ SSI records. 6 SSI records are tracked based
on the individuals’ SSNs. Therefore, SSA’s ability to recognize the appropriate amount
of OASDI income is reduced when auxiliary beneficiaries’ SSNs do not appear on their
MBRs.


6
 According to SSA policy, the MBR and SSI record interface daily to share information about
beneficiaries (POMS, section SM 02001.001).
Page 5 – The Commissioner


Of the 63,134 auxiliary beneficiaries in our population who did not have an SSN on the
MBR, we identified 35 individuals who may have received too much in SSI payments
because SSA did not recognize the appropriate amount of OASDI income when
calculating the SSI payments.

With SSA’s assistance, we determined that, of these 35 auxiliary beneficiaries,

     24 (69 percent) incorrectly received $89,938 in SSI payments because SSA did not
      recognize all of their OASDI income on
      their SSI records. 7                                     Results of SSI Cases

      For example, a recipient from New York                                        Incorrect Payments
      incorrectly received $22,913 in SSI                                          Due to Missing SSNs
                                                             Still                         69%
      payments because the Agency did not                   Being
      recognize any of the OASDI income                     Worked
                                                             3%
      she was receiving as an auxiliary
      beneficiary. Based on our work, SSA
      added the auxiliary beneficiary’s SSN to
      the MBR in July 2007. As a result, the
      system now recognizes the OASDI                       No Incorrect
      income when calculating her SSI                        Payments
                                                                28%
      payment amount.

     10 (28 percent) were unaffected by the missing SSNs. This included nine cases
      where the possible SSNs identified proved incorrect and one case where the OASDI
      benefits were correctly recorded as income on the SSR.

     1 (3 percent) was still being worked by SSA as of February 2008.

ADDITIONAL IMPACT ON SSA’s PROGRAMS

Of the 63,134 auxiliary beneficiaries identified, we were unable to locate possible SSNs
for 33,458 individuals (53 percent). As a result, all of the analysis and findings
discussed in our report are based on 47 percent of our population (or 29,676 auxiliary
beneficiaries). However, we expect that, if SSA adds SSNs to the remaining 53 percent
of our population and conducts similar analysis, additional overpayments will result.
This is especially likely since 29,166 (87 percent) of these 33,458 beneficiaries were
age 65 or older. These individuals will most likely continue to receive benefits until their
deaths. However, SSA may not be able to identify and terminate their benefit payments
when these individuals die if their SSNs are not on the MBR.




7
    As of February 2008, SSA had not yet assessed the overpayment amounts in six of these cases.
Page 6 – The Commissioner


CONCLUSION AND RECOMMENDATION
SSA implemented two of the recommendations in our prior report and made an effort to
implement a third recommendation to add the SSNs to the MBRs of all auxiliary
beneficiaries who are currently receiving benefits. However, we still identified about
$7.6 million in improper payments—most of which could have been avoided if the
beneficiaries’ own SSNs appeared on their benefit records. Moreover, most of these
improper payments were from cases where the auxiliary beneficiaries were first entitled
to benefits before June 1989.

It is important that SSA take all cost-effective steps to ensure payment accuracy,
especially in light of the Agency’s strategic goals, which include ensuring superior
stewardship of Social Security programs and resources. Further, as SSA continues its
efforts to automate its workloads and effectively use technology, it is important that all
beneficiaries have an SSN on the MBR to facilitate data matching within SSA as well as
with other entities. To assist SSA in achieving its goals, we recommend the Agency:

  1. Take all feasible steps to add the SSNs to the MBRs of all auxiliary beneficiaries
     currently receiving benefits (including those beneficiaries who were first entitled to
     benefits prior to June 1989).

AGENCY COMMENTS
SSA agreed with our recommendation. (See Appendix D for SSA’s Comments.)




                                                Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Status of Recommendations from Prior Audit
APPENDIX C – Scope and Methodology
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                            Appendix A

Acronyms
BOAN          Beneficiary’s Own Account Number
DACUS         Death Alert, Control and Update System
FO            Field Office
FY            Fiscal Year
MBR           Master Beneficiary Record
OASDI         Old-Age, Survivors and Disability Insurance
OIG           Office of the Inspector General
POMS          Program Operations Manual System
Pub. L. No.   Public Law Number
RO            Regional Office
SSA           Social Security Administration
SSI           Supplemental Security Income
SSN           Social Security Number
U.S.C.        United States Code
                                                                              Appendix B

Status of Recommendations from Prior Audit
In September 2002, the Office of the Inspector General (OIG) issued a report, Impact on
the Social Security Administration’s Programs When Auxiliary Beneficiaries Do Not
Have Their Own Social Security Numbers (A-01-02-22006). The table below lists the
recommendations from the prior report, the Social Security Administration’s (SSA)
actual/proposed actions at the time the report was issued, and the current status as of
February 2008.

Recommendation 1 – Add the SSNs to the MBRs of all auxiliary beneficiaries
currently receiving benefit payments.
SSA’s Comments        SSA agreed with this recommendation. SSA stated that the addition of
and/or Actions from   missing Social Security numbers (SSN) for auxiliary beneficiaries will
September 2002        facilitate SSA’s matching processes and reduce erroneous payments.
Report                SSA issued policy instructions on May 13, 2002, regarding the need to
                      enter an auxiliary beneficiary's SSN on the Master Beneficiary Record
                      (MBR) if it is not already on the record. SSA stated it would issue
                      additional instructions before the end of the fiscal year (FY) to all offices
                      emphasizing the importance of processing the Beneficiary’s Own Account
                      Number (BOAN) alerts and of adherence to the policy instructions for
                      verifying and entering SSNs for auxiliary beneficiaries.
Current Status as     SSA issued additional instructions on August 29, 2002, to all offices
of 2008               emphasizing the importance of processing the BOAN alerts and of
                      adherence to the policy instructions for verifying and entering SSNs for
                      auxiliary beneficiaries. Additionally, in our prior review, we identified
                      126,471 auxiliary beneficiaries who were receiving benefits as of
                      August 2001 without an SSN on the MBR. In our current review, we only
                      identified 63,134 auxiliary beneficiaries who were receiving benefits as of
                      October 2006 without an SSN on the MBR.
Recommendation 2 – Modify its missing BOAN alert process to include auxiliary
beneficiaries who became entitled to benefits prior to June 1989.
SSA’s Comments        SSA disagreed with this recommendation and stated it is not required by
and/or Actions from   statute to require an SSN for auxiliaries entitled before June 1989. SSA
September 2002        stated it had addressed this issue, as indicated in Recommendation 1, by
Report                issuing policy instructions regarding the need for SSA staff to make every
                      effort to ascertain, verify and post missing BOANs, including those for
                      auxiliary beneficiaries entitled before June 1989.
Current Status as     SSA still disagrees with this recommendation. However, in Calendar
of 2008               Year 2007, SSA implemented a system enhancement (as part of its
                      Medicare Modernization Act Project) to put SSNs on the auxiliary records.




                                               B-1
Recommendation 3 – Generate reports of auxiliary beneficiaries with missing
BOAN alerts that have not been cleared timely to a higher level of management.
SSA’s Comments        SSA agreed with this recommendation. SSA stated the reports would
and/or Actions from   require systems programming. SSA stated it would develop an
September 2002        Information Technology Template for submission during the next cycle
Report                (scheduled for October - November 2002) that would allow SSA to track
                      the volume of missing BOAN alerts by Regional Office (RO) and Field
                      Office (FO).
Current Status as     Effective October 2004, a file with data on BOAN alerts sorted by RO and
of 2008               FO jurisdiction is available to ROs and FO managers. This allows
                      managers to monitor the BOAN alert processing.
Recommendation 4 – Review the remaining 702 auxiliary beneficiaries identified
by our earnings match to adjust their payments as needed.
SSA’s Comments        SSA agreed with this recommendation. SSA stated it would obtain the
and/or Actions from   SSNs from OIG and refer them to the processing centers for necessary
September 2002        action. SSA expected to complete the cases during FY 2003.
Report
Current Status as     SSA obtained the SSNs related to the 702 items and referred them to the
of 2008               processing centers for necessary action. The processing centers
                      completed their review and adjustment of the 702 auxiliary payments on
                      April 10, 2003.




                                             B-2
                                                                                    Appendix C

Scope and Methodology
To accomplish our objective, we:

   Reviewed applicable sections of the Social Security Act and the Social Security
    Administration’s (SSA) regulations, rules, policies and procedures.

   Reviewed prior Office of the Inspector General (OIG) audit reports.

   Identified, through data analysis, 63,134 auxiliary beneficiaries who were receiving
    Old-Age, Survivors and Disability Insurance (OASDI) benefits as of October 2006
    and whose Social Security numbers (SSN) were missing from the wage earner’s
    Master Benefit Record (MBR).

    1. We identified possible SSNs for the auxiliary beneficiaries using either SSA’s
       Enumeration Verification System or the auxiliary beneficiaries’ cross-reference
       SSNs, which we found on the MBRs.

    2. We compared the possible SSNs to SSA’s Numident File 1 and/or Supplemental
       Security Income (SSI) record in February 2007 and found

         311 cases where it appeared the auxiliary beneficiaries were being paid
          OASDI benefits after death and

         35 cases where it appeared the auxiliary beneficiaries were receiving too
          much in SSI payments because their OASDI benefits were not appropriately
          recorded on their SSI records.

   Referred cases to SSA to (a) determine whether the possible SSNs were in fact the
    SSNs for the auxiliary beneficiaries and (b) correct the records where appropriate.
    We also requested that SSA refer any instances of possible fraud to the OIG’s Office
    of Investigations.

   Quantified the dollar impact on the beneficiaries’ payments for each case.

   Determined how many of the 63,134 auxiliary beneficiaries in our population were
    first entitled to benefits June 1989 or later.

   Obtained information from SSA personnel regarding (a) reports of auxiliary
    beneficiaries with missing Beneficiary’s Own Account Number alerts that have not been

1
 The Numident File contains information such as name, date of birth, and date of death (if applicable) for
each individual issued an SSN.


                                                   C-1
   cleared timely to a higher level of management and (b) the resolution of the
   702 auxiliary beneficiaries identified by our earnings match in the 2002 audit.

We conducted our audit between June and February 2008 in Boston, Massachusetts.
We found the data used for this audit were sufficiently reliable to meet our audit
objective. The entities audited were SSA’s Field Offices under the Deputy
Commissioner for Operations and the Deputy Commissioner for Systems. We
conducted our audit in accordance with generally accepted government auditing
standards.




                                           C-2
                  Appendix D

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      February 27, 2008                                                     Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      David V. Foster       /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "Follow-up on the Impact on the Social
           Security Administration's Programs When Auxiliary Beneficiaries Do Not Have Their Own
           Social Security Numbers" (A-01-07-17038)--INFORMATION

           We appreciate OIG’s efforts in conducting this review. Our response to the report findings and
           recommendation are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                         D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "FOLLOW-UP ON THE IMPACT ON THE SOCIAL SECURITY
ADMINISTRATION'S PROGRAMS WHEN AUXILIARY BENEFICIARIES DO NOT
HAVE THEIR OWN SOCIAL SECURITY NUMBERS" (A-01-07-17038)


Thank you for the opportunity to review and comment on the draft report. We are pleased with
this report’s findings in that this review identified 50 percent fewer auxiliary beneficiaries
receiving benefits without a Social Security number (SSN) on the Master Beneficiary Record
(MBR) than the prior 2002 review. The enhancements put in place after the 2002 audit are
working and we expect to see continued improvement based on the additional effort taken that
addresses the report’s specific recommendation, as described below.

Recommendation 1

Take all feasible steps to add the SSN to the MBR of all auxiliary beneficiaries currently
receiving benefits (including those beneficiaries who were first entitled to benefits prior to June
1989).

Response

We agree. The audit acknowledges that we performed a match to post missing auxiliary SSNs to
the MBR as part of the Medicare Modernization Act Project. This match was performed in the
fall of 2007, so the matching results would not have been visible at the time the audit was
actually conducted. The match included beneficiaries entitled prior to June 1989. We consider
this system's match the most feasible process for gathering pre-June 1989 SSNs.




                                                D-2
                                                                      Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Judith Oliveira, Director, Boston Audit Division, (617) 565-1765

   David Mazzola, Audit Manager, (617) 565-1807

Acknowledgments

In addition to those named above:

   Kevin Joyce, IT Specialist

   Toni Paquette, Program Analyst

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-01-07-17038.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
